Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




       MEDICARE PART D
   E-PRESCRIBING STANDARDS:
   EARLY ASSESSMENT SHOWS
     PARTIAL CONNECTIVITY




                    Daniel R. Levinson
                     Inspector General

                      October 2009
                     OEI-05-08-00320
                 Office of Inspector General
                                  http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying
out their respective responsibilities and are intended to provide independent assessments of
HHS programs and operations. These assessments help reduce waste, abuse, and
mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on significant
issues. These evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness of departmental programs. To promote impact, OEI
reports also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations
of fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources
by actively coordinating with the Department of Justice and other Federal, State, and local
law enforcement authorities. The investigative efforts of OI often lead to criminal
convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support for OIG’s internal operations. OCIG represents OIG in all civil and
administrative fraud and abuse cases involving HHS programs, including False Claims Act,
program exclusion, and civil monetary penalty cases. In connection with these cases, OCIG
also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG
enforcement authorities.
Δ   E X E C U T I V E                                     S U M M A R Y


                  OBJECTIVE
                  To determine the extent of Medicare Part D plan sponsors’
                  implementation of electronic prescribing (e-prescribing) standards to
                  support connectivity with prescribers and dispensers.


                  BACKGROUND
                  The Medicare Prescription Drug, Improvement, and Modernization Act
                  of 2003 established the Medicare Part D e-prescribing program, which
                  stipulates that plan sponsors must implement e-prescribing standards
                  specified by the Secretary of the Department of Health and Human
                  Services (the Secretary). E-prescribing standards facilitate the
                  communication of prescription information among prescribers (e.g.,
                  physicians), Part D plan sponsors, and dispensers (e.g., pharmacies).

                  On behalf of the Secretary, the Centers for Medicare & Medicaid
                  Services (CMS) established e-prescribing standards. Three of these
                  standards enable the flow of eligibility, medication history, and
                  formulary and benefits information between plan sponsors and
                  prescribers at the point of care. These plan-to-prescriber standards are
                  Accredited Standards Committee X12N 270/271, SCRIPT 8.1, and
                  Formulary & Benefits Standard 1.0. Further, Formulary & Benefits
                  Standard 1.0 consists of four components: Formulary Status List,
                  Formulary Alternatives List, Coverage List, and Copayment List. The
                  flow of eligibility information and copayment amounts between plan
                  sponsors and dispensers is supported by one standard,
                  Telecommunication 5.1. CMS required that plan sponsors implement
                  two standards by January 2006 and the remaining standard by April
                  2009. In some cases, however, plan sponsors are exempt from
                  implementing SCRIPT 8.1.

                  Between August and September 2008, we surveyed all Part D plan
                  sponsors for plan year 2008 to determine the extent of their
                  implementation of the standards. We received responses from 262 plan
                  sponsors for a 94-percent response rate.


                  FINDINGS
                  Nearly 80 percent of plan sponsors reported at least partial
                  plan-to-prescriber connectivity but few reported complete
                  connectivity. Seventy-seven percent of plan sponsors responding to our
                  survey reported either partial or complete implementation of the

OEI-05-08-00320   M E D I C A R E P A R T D E - P R E S C R I B I N G S T A N D A R D S : E A R LY A S S E S S M E N T S H O W S P A R T I A L C O N N E C T I V I T Y   i
E X E C U T I V E                        S U           M M A R Y


                   plan-to-prescriber standards. Sixty-nine percent of plan sponsors
                   reported partial plan-to-prescriber connectivity. In contrast, only
                   8 percent of plan sponsors reported complete connectivity. Additionally,
                   16 percent of plan sponsors reported no plans to achieve
                   plan-to-prescriber connectivity. The remaining plan sponsors did not
                   provide information on plan-to-prescriber connectivity.
                   Problems implementing Formulary & Benefits Standard 1.0 limit
                   complete plan-to-prescriber connectivity. Plan sponsors’
                   plan-to-prescriber connectivity is limited because only 8 percent of plan
                   sponsors have completely implemented Formulary & Benefits Standard
                   1.0. In contrast, over 70 percent of plan sponsors reported complete
                   implementation of each of the other two plan-to-prescriber standards.
                   To achieve complete plan-to-prescriber connectivity, plan sponsors have
                   to completely implement all three plan-to-prescriber standards.

                   Of the Formulary & Benefits Standard 1.0 components, fewer plan
                   sponsors reported complete implementation of the Coverage List and
                   the Copayment List than the Formulary Status List and the Formulary
                   Alternatives List. According to plan sponsors, the batch data upload
                   process (a way of transmitting data at specified intervals) is a barrier to
                   complete implementation of the Coverage List and the Copayment List.
                   Only 5 percent of plan sponsors reported no plan-to-dispenser
                   connectivity. Five percent of plan sponsors responding to our survey
                   reported no plans to implement the plan-to-dispenser standard. These
                   plan sponsors are Program for All-Inclusive Care for the Elderly (PACE)
                   plan sponsors. Most of these PACE plans reported that they believed
                   that they were exempt from e-prescribing requirements. Entities that
                   only send prescriptions internally are exempt from implementing
                   SCRIPT 8.1, but no exemption exists for the plan-to-dispenser standard,
                   Telecommunication 5.1.

                   Eighty-three percent of plan sponsors reported complete
                   plan-to-dispenser connectivity. The remaining plan sponsors did not
                   provide information on plan-to-prescriber connectivity.


                   RECOMMENDATIONS
                   Based on the results of our review, CMS should:

                   Ensure that plan sponsors completely implement the
                   plan-to-prescriber and plan-to-dispenser standards. To achieve this,
                   CMS could: (1) continue to educate plan sponsors about e-prescribing

 OEI-05-08-00320   M E D I C A R E P A R T D E - P R E S C R I B I N G S T A N D A R D S : E A R LY A S S E S S M E N T S H O W S P A R T I A L C O N N E C T I V I T Y   ii
E X E C U T I V E                        S U           M M A R Y


                   requirements; (2) clarify e-prescribing standards exemptions; or (3) use
                   available compliance mechanisms when necessary, such as corrective
                   action plans and civil monetary penalties, to bring plan sponsors into
                   compliance.
                   Collaborate with plan sponsors and industry representatives to
                   address barriers to full implementation of Formulary & Benefits
                   Standard 1.0. CMS should collaborate with plan sponsors,
                   pharmaceutical benefits managers, and standards-development
                   organizations to address the batch-processing problems identified in
                   this report. CMS could consider pilot-testing a real-time standard that
                   enables plan sponsors to transmit beneficiary-specific formulary and
                   benefits information.


                   AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                   RESPONSE
                   CMS concurred with each of our recommendations. To address our
                   recommendations, CMS will continue to educate plan sponsors about
                   e-prescribing requirements. If necessary, CMS will also use available
                   compliance mechanisms to bring plan sponsors into compliance. In
                   addition, CMS plans to continue its collaboration with the National
                   Council for Prescription Drug Programs, Inc., to continually update and
                   develop new e-prescribing standards.

                   Although CMS concurred with our recommendations, it asserted there
                   were significant methodological limitations with our data collection and
                   analysis, resulting in inflated findings of plan sponsor noncompliance
                   with e-prescribing standards. Specifically, CMS asserted that our
                   results would have likely been different if our plan sponsor survey had
                   been conducted closer to the implementation deadline. If we had
                   conducted our survey at a later date, we acknowledge that
                   implementation rates could have risen. However, we do not believe that
                   the results reported here are inflated. CMS did conduct educational
                   activities that clarified requirements; however, plan sponsors reported
                   that technical difficulties were often a barrier to complete
                   implementation, rather than a lack of clarity regarding the regulations.




 OEI-05-08-00320   M E D I C A R E P A R T D E - P R E S C R I B I N G S T A N D A R D S : E A R LY A S S E S S M E N T S H O W S P A R T I A L C O N N E C T I V I T Y   iii
Δ   T A B L E          O F            C O N T E N T S



         EXECUTIVE SUMMARY .....................................i



         INTRODUCTION ........................................... 1



         F I N D I N G S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
                    Nearly 80 percent of plan sponsors reported at least partial
                    plan-to-prescriber connectivity but few reported complete
                    connectivity . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11

                    Problems implementing Formulary & Benefits Standard 1.0
                    limit complete plan-to-prescriber connectivity. . . . . . . . . . . . . . . . 14

                    Only 5 percent of plan sponsors reported no plan-to-dispenser
                    connectivity . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17



         R E C O M M E N D A T I O N S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19
                    Agency Comments and Office of Inspector General Response . . . 20



         A P P E N D I X E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23
                    A: Formulary & Benefits Standard 1.0 Components . . . . . . . . . . 23

                    B: Analysis Categories for Plan-to-Prescriber and
                       Plan-to-Dispenser Connectivity . . . . . . . . . . . . . . . . . . . . . . . . 24

                    C: Implementation of Plan-to-Prescriber Standards . . . . . . . . . . 26

                    D: Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 29


         A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 33
I   N T    R O        D   U      C T           I     O      N
Δ       I N T R O D U C T I O N


                              OBJECTIVE
                              To determine the extent of Medicare Part D plan sponsors’
                              implementation of electronic prescribing (e-prescribing) standards to
                              support connectivity with prescribers and dispensers.


                              BACKGROUND
                              In general, e-prescribing is the electronic communication of prescription
                              information among health insurance companies, doctors, and
                              pharmacies. E-prescribing is one example of health information
                              technology, which the Presidential agenda outlines as a way to improve
                              care and lower health care costs. 1 E-prescribing benefits that may
                              lower costs include decreased adverse drug events, increased clinical
                              efficiency, and increased generic utilization. A 2008 study indicated
                              that, with access to formulary information, doctors prescribed lower cost
                              medications, leading to an estimated savings of $845,000 per 100,000
                              patients. 2
                              E-prescribing benefits result from prescriber access to prescription
                              information at the point of care. To make prescription information
                              available at the point of care, e-prescribing systems use uniform
                              standards that enable multiple data systems to exchange information
                              with one another. Without e-prescribing standards, different data
                              systems cannot send and receive drug information, limiting benefits
                              such as improved patient safety, increased clinical efficiency, and cost
                              savings.
                              Traditional Prescribing Versus E-Prescribing
                              Traditional prescribing occurs when a prescriber provides a written
                              prescription to a beneficiary. Prescribers are persons licensed to issue
                              prescriptions for drugs (e.g., physicians, dentists, or physician
                              assistants). 3 Then, a beneficiary takes the prescription to a dispenser to
                              be filled. Dispensers are persons or other legal entities licensed to
                              dispense prescription drugs (e.g., pharmacies). 4 A dispenser may call a

                                1 The White House, “The Agenda: Technology.” Available online at
                              http://www.whitehouse.gov/agenda/technology/. Accessed on March 13, 2009.
                                2 M. Fischer, et al. (2008). “Effect of Electronic Prescribing with Formulary Decision
                              Support on Medication Use and Cost.” Archives of Internal Medicine, 168 (22),
                              pp. 2433–2439.
                                  3 42 CFR § 423.159(a).
                                  4 Ibid.




    OEI-05-08-00320           M E D I C A R E P A R T D E - P R E S C R I B I N G S T A N D A R D S : E A R LY A S S E S S M E N T S H O W S P A R T I A L C O N N E C T I V I T Y   1
I N T R O D        U C T             I O N


                    prescriber to verify a drug dosage or to ask for authorization to dispense
                    a generic drug. This followup may take several attempts if the
                    prescriber is not available when the dispenser calls.

                    In contrast to traditional prescribing, e-prescribing occurs when a
                    prescriber uses a computer or an electronic hand-held device, such as a
                    personal digital assistant, to write and send a prescription directly to a
                    dispenser. Before a prescriber sends a prescription to a dispenser, he or
                    she can request beneficiary eligibility, formulary and benefits, and
                    medication history information from a plan sponsor or its
                    pharmaceutical benefits manager (PBM). PBMs are companies that
                    provide pharmacy support services to plan sponsors, including claims
                    processing and adjudication.

                    Prescribers can use prescription information to prescribe low-cost,
                    alternative drugs and potentially avoid adverse drug events, such as
                    drug allergies or drug-to-drug interactions. Plan-to-prescriber
                    communication is a new feature in the prescribing process that is not
                    available in traditional prescribing.

                    Plan-to-dispenser communication in e-prescribing works the same as in
                    traditional prescribing. Dispensers electronically communicate with
                    health insurers or with the insurers’ PBMs to obtain beneficiary
                    eligibility information and copayment amounts. PBMs communicate
                    prescription information to dispensers on behalf of the health insurers
                    with which they contract.

                    Figures 1 and 2 illustrate the communication among health insurers,
                    PBMs, prescribers, and dispensers in traditional prescribing and
                    e-prescribing.




 OEI-05-08-00320    M E D I C A R E P A R T D E - P R E S C R I B I N G S T A N D A R D S : E A R LY A S S E S S M E N T S H O W S P A R T I A L C O N N E C T I V I T Y   2
              I N T R O D                  U C T            I O N


  Figure 1. Flow of Prescription-Related Information in Traditional Prescribing

                                                                                                                                                    Prescription: Prescriber
                                                                                                                                                    provides written prescription to
                                                                                                                                                    beneficiary. The beneficiary
                                                                                                                                                    takes the prescription to the
                                                                                                                                                    dispenser to be filled.


                                                                                                                                                                            Followup: If needed,
                                                                                                                                                                            dispenser calls prescriber to
                                                                                       Prescriber                                                                           ask questions about the
                                                                                                                                                                            prescription (e.g., dosage,
                                                                                                                                                                            generic substitutions, etc.)
                                                                                                                                                                            and to make refill requests.




        Health Insurer              Health insurer                                             Plan Eligibility: PBM communicates
                                    provides PBM                  PBM                          electronically with dispenser to verify                                    Dispenser
                                    with beneficiary                                           beneficiary enrollment and copayment
                                    eligibility and                                            amounts.
                                    benefit
                                    information.


Source: Office of Inspector General (OIG) analysis, 2008.

  Figure 2. Flow of Prescription-Related Information in E-Prescribing
                      Medication History: PBM electronically
                      sends the prescriber a list of drugs that
                      have been dispensed to the beneficiary to                                                                    Prescription Order: Prescriber
                      give the prescriber information to help                                                                      electronically sends a prescription to
                      prevent potential drug interactions.                                                                         the dispenser. As part of this process,
                                                                                                                                   the prescriber can request medication
                                                                                                                                   history from the dispenser. The
             Plan Eligibility: PBM electronically                                           Prescriber                             dispenser can notify the prescriber
             communicates with the prescriber to verify                                                                            when the prescription has been filled.
             beneficiary enrollment.

      Formulary & Benefits: PBM
      electronically sends the prescriber                                                                                                                       Followup: If needed, the
      information about the beneficiary’s                                                                                                                       dispenser can make refill
      formulary, preferred drug alternatives,                                                                                                                   requests electronically. For
      coverage, and copayment amounts to help                                                                                                                   other questions, the dispenser
      the prescriber make the most appropriate                                                                                                                  can call the prescriber.
      drug choice without extensive
      communication with the dispenser or
      health insurer.




                              Health insurer                                      Plan Eligibility: PBM communicates
  Health Insurer              provides PBM                                        electronically with the dispenser to verify
                              with beneficiary                                    beneficiary enrollment and copayment
                              eligibility and         PBM                         amounts.                                                                Dispenser
                              benefit
                              information.

Source: OIG analysis, 2008.


                        OEI-05-08-00320            M E D I C A R E P A R T D E - P R E S C R I B I N G S T A N D A R D S : E A R LY A S S E S S M E N T S H O W S P A R T I A L C O N N E C T I V I T Y   3
I N T R O D        U C T             I O N


                    Medicare Prescription Drug, Improvement, and Modernization Act of 2003
                    The Medicare Prescription Drug, Improvement, and Modernization Act
                    of 2003 (MMA) established the Medicare prescription drug program,
                    known as Medicare Part D, which provides optional drug benefits to
                    Medicare beneficiaries. 5 The Centers for Medicare & Medicaid Services
                    (CMS) contracts with private insurance companies, known as plan
                    sponsors, to provide prescription drug coverage for beneficiaries who
                    choose to enroll in the program. Plan sponsors may offer prescription
                    coverage as a stand-alone prescription drug plan or as part of a
                    managed care plan, known as a Medicare Advantage Prescription Drug
                    Plan. 6 As of February 2009, approximately 26.6 million beneficiaries
                    were enrolled in Medicare Part D. 7
                    MMA and E-Prescribing
                    The MMA also established the Medicare Part D e-prescribing program, 8
                    which requires that plan sponsors support e-prescribing activities by
                    implementing e-prescribing standards specified by the Secretary of the
                    Department of Health and Human Services (the Secretary). 9
                    E-prescribing standards enable interoperability among e-prescribing
                    systems. With interoperable systems, plan sponsors, prescribers, and
                    dispensers can exchange drug information with one another. The
                    Secretary delegated oversight of plan-sponsor implementation of the
                    e-prescribing standards to CMS.

                    The requirement to implement e-prescribing standards is incorporated
                    into plan sponsors’ contracts. 10 CMS contracts with plan sponsors by




                        5 Title I of the MMA, P.L. No. 108-173, Part D of Title XVIII of the Social Security Act,
                    42 U.S.C. § 1395w-101 et seq.
                        6 MMA, P.L. No. 108-173 § 101(a), Social Security Act, § 1860D-1(a)(1),
                    42 U.S.C. § 1395w-101(a)(1).
                        7 CMS, “Total Medicare Beneficiaries With Prescription Drug Coverage.” 2009. Available
                    online at http://www.cms.hhs.gov/PrescriptionDrugCovGenIn/. Accessed on February 23,
                    2009.
                        8 MMA, P.L. No. 108-173 § 101(a), Social Security Act, § 1860D-4(e), 42 U.S.C.
                    § 1395w-104(e).
                        9 42 CFR § 423.160(a). Although the MMA does not explicitly mandate that plan
                    sponsors support e-prescribing, CMS has interpreted the e-prescribing program established
                    at section 1860D(4) of the Social Security Act as being unworkable without such mandatory
                    support. See 69 Fed. Reg. 46632, 46671 (Aug. 3, 2004).
                        10 42 CFR § 423.505(b)(6).




 OEI-05-08-00320    M E D I C A R E P A R T D E - P R E S C R I B I N G S T A N D A R D S : E A R LY A S S E S S M E N T S H O W S P A R T I A L C O N N E C T I V I T Y   4
                      I N T R O D                  U C T              I O N


                                                     September for the following plan year, which begins in January. 11
                                                     Because CMS includes e-prescribing requirements in plan sponsor
                                                     contracts, it may institute corrective action plans, issue civil monetary
                                                     penalties, and terminate plan sponsors’ contracts for plan sponsors that
                                                     fail to implement the e-prescribing standards. 12
                                                     E-Prescribing Standards
                                                     CMS established four e-prescribing standards to support the
                                                     interoperability of plan sponsors’ e-prescribing systems with other
                                                     e-prescribing systems. CMS required that plan sponsors implement two
                                                     standards by January 2006. 13 In April 2008, CMS issued a final rule
                                                     requiring that plan sponsors implement two additional standards by
                                                     April 2009. 14 Table 1 describes the e-prescribing standards and groups
                                                     them according to whether they facilitate plan-to-prescriber or
                                                     plan-to-dispenser connectivity.

 Table 1: E-Prescribing Standards for Medicare Part D Plan Sponsors

                                                                                   Implementation
 Connectivity                     E-Prescribing Standard                                 Deadline                                                                            Flow of Prescription Information
                                     Accredited Standards
                                   Committee (ASC) X12N                                                                     Plan sponsors respond to prescribers’ requests about beneficiary
                                                  270/271                               January 2006                                                                                eligibility.
 Plan-to-Prescriber                                                                                                        Plan sponsors respond to prescribers’ requests for a beneficiary’s
 Connectivity                                 SCRIPT 8.1                                      April 2009                                                            Part D medication history.
                                      Formulary & Benefits                                                                      Plan sponsors respond to prescribers’ requests for formulary,
                                             Standard 1.0                                     April 2009                              alternative drug, coverage, and copayment information.
 Plan-to-Dispenser                                                                                                        Plan sponsors respond to dispensers’ requests about eligibility and
 Connectivity                       Telecommunication 5.1                               January 2006                                                                     copayment amounts.
Source: OIG analysis of e-prescribing standards, 2008.

                                                     CMS provided education to plan sponsors about e-prescribing
                                                     requirements. In September 2008, CMS issued a memorandum
                                                     reminding plan sponsors of the implementation deadlines for each
                                                     standard and reiterating the expectation that all components of each


                                                       11 CMS, “Solicitation for Applications for New Prescription Drug Plans Sponsors:

                                                     2010 Contract Year,” 2009. Available online at
                                                     http://www.cms.hhs.gov/PrescriptionDrugCovContra/Downloads/PDPApplication.pdf.
                                                     Accessed on June 12, 2009.
                                                         12 42 CFR §§ 423.509(a)(1) and (c) and 42 CFR § 423.752(c)(1).
                                                         13 42 CFR §§ 423.160(b)(2)(i) and (ii), as promulgated in 70 Fed. Reg. 67568, 67573
                                                     (Nov. 7, 2005), now found at 42 CFR §§ 423.160(b)(3)(i) and (ii). CMS also established a
                                                     standard for transmitting prescriptions at what is now 42 CFR § 423.160(b)(2), effective
                                                     January 2006. However, we did not test this standard as it is the only standard in use for
                                                     the transmission of electronic prescriptions.
                                                       14 42 CFR §§ 423.160(b)(1), (b)(4), and (b)(5), as promulgated in 73 Fed. Reg. 18918,
                                                     18926 (Apr. 7, 2008).



                          OEI-05-08-00320            M E D I C A R E P A R T D E - P R E S C R I B I N G S T A N D A R D S : E A R LY A S S E S S M E N T S H O W S P A R T I A L C O N N E C T I V I T Y   5
I N T R O D        U C T             I O N


                    standard be implemented. 15 Additionally, CMS held an e-prescribing
                    conference in October 2008. The conference included educational
                    sessions and presentations about e-prescribing, e-prescribing standards,
                    and the effective date for standards implementation.

                    Plan-to-prescriber connectivity. CMS established three e-prescribing
                    standards to be used by plan sponsors, or PBMs on their behalf, when
                    communicating prescription information to prescribers. These are
                    ASC X12N 270/271, SCRIPT 8.1, and Formulary & Benefits Standard
                    1.0.

                    ASC X12N 270/271 and SCRIPT 8.1 require that plan sponsors populate
                    drug information through a real-time transaction. A real-time
                    transaction is a process by which plan sponsors send current eligibility
                    and medication history information for each beneficiary upon request.

                    Formulary & Benefits Standard 1.0 is composed of four components:
                    Formulary Status List, Formulary Alternatives List, Coverage List, and
                    Copayment List. Each component is further divided into several
                    elements. See Appendix A for a detailed description of Formulary &
                    Benefits Standard 1.0 components.

                    Formulary & Benefits Standard 1.0 requires that plan sponsors
                    populate component information through a batch data upload process.
                    A batch data upload is the process by which plan sponsors send batches
                    of formulary and benefit information at specified intervals, such as
                    weekly or monthly, rather than providing information for each
                    beneficiary upon request. CMS adopted this process because of
                    successful pilot-testing and because it was the current industry practice
                    for sending Formulary Status List information. 16
                    Plan-to-dispenser connectivity. CMS established one e-prescribing
                    standard to be used when plan sponsors, or PBMs on their behalf,
                    communicate prescription information to dispensers. This standard is
                    Telecommunication 5.1. Plan sponsors use a real-time transaction for
                    Telecommunication 5.1 to communicate beneficiary eligibility




                     15 CMS, Memorandum to Part D Sponsors, “Supporting Electronic Prescribing Under
                    Medicare Part D,” September 19, 2008.
                        16 73 Fed. Reg. 18918, 18924 (Apr. 7, 2008).




 OEI-05-08-00320    M E D I C A R E P A R T D E - P R E S C R I B I N G S T A N D A R D S : E A R LY A S S E S S M E N T S H O W S P A R T I A L C O N N E C T I V I T Y   6
I N T R O D        U C T             I O N


                    information and copayment amounts to dispensers. CMS adopted
                    this standard because it was already widely used in the pharmacy
                    industry. 17
                    E-Prescribing Standards Exemptions
                    In some cases, plan sponsors are exempt from implementing SCRIPT
                    8.1. Implementation of SCRIPT 8.1 is optional for entities 18 that
                    transmit prescriptions or prescription information internally. 19 In these
                    cases, sometimes referred to as “closed e-prescribing systems,” the
                    prescriber and the recipient (e.g., a pharmacy) are part of the same legal
                    entity. However, the entity is required to use SCRIPT 8.1 for any
                    electronic prescriptions for a Part D beneficiary sent to an external
                    recipient. 20 Entities that transmit prescriptions by computer-generated
                    facsimile or are required by law to issue a written prescription for a
                    patient to a nonprescribing provider, such as a nursing facility, are also
                    exempt from using this standard. 21
                    Related OIG Reports
                    In 2007, OIG conducted a study that evaluated State Medicaid agencies’
                    implementation of health information technology initiatives, which
                    included e-prescribing initiatives. OIG found that in 2007 several State
                    Medicaid agencies were developing networks to enable health care
                    providers and payers to securely exchange clinical information, such as
                    prescription history. 22
                    OIG plans to release a companion e-prescribing report to this report.
                    The companion report will provide details about Part D plan sponsor
                    initiatives to promote e-prescribing among prescribers.


                    METHODOLOGY
                    Scope
                    We assessed plan sponsor e-prescribing connectivity by reviewing plan
                    sponsors’ implementation of, or plans to implement, the four


                        17 70 Fed. Reg. 67568, 67574 (Nov. 7, 2005).
                        18 Entities include plan sponsors, prescribers, PBMs, and other organizations that
                    transmit prescriptions or prescription-related information.
                        19 42 CFR § 423.160(a)(3)(iii).
                        20 42 CFR § 423.160(a)(1).
                        21 42 CFR §§ 423.160(a)(3)(i) and (iv).
                        22 OIG, “State Medicaid Agencies’ Initiatives on Health Information Technology and
                    Health Information Exchange,” OEI-02-06-00270, August 2007.



 OEI-05-08-00320    M E D I C A R E P A R T D E - P R E S C R I B I N G S T A N D A R D S : E A R LY A S S E S S M E N T S H O W S P A R T I A L C O N N E C T I V I T Y   7
I N T R O D        U C T             I O N


                    e-prescribing standards. We did not evaluate prescriber or dispenser
                    e-prescribing volume or use of the standards.
                    Data Collection
                    We used CMS’s Health Plan Management System (HPMS) data from
                    July 2008 to identify plan sponsors and their associated PBMs for plan
                    year 2008. 23 The HPMS provides information about Part D plans.
                    We also used HPMS data to identify the number of beneficiaries
                    enrolled with each plan sponsor in 2008. As of July 2008, 26.2 million
                    beneficiaries were enrolled in Part D.

                    Survey. Between August and September 2008, we conducted an email
                    survey of all plan sponsors or their PBMs for plan year 2008. Although
                    CMS allows exemptions to the e-prescribing standards, we did not
                    exclude any plan sponsors from our study because CMS had not granted
                    any exemptions.

                    The survey consisted of questions about the extent to which plan
                    sponsors had implemented or planned to implement Part D
                    e-prescribing standards. Where applicable, we asked plan sponsors to
                    explain why they had not implemented the standards.

                    We followed up with plan sponsors and PBMs if they reported that they
                    did not currently support e-prescribing and did not indicate their future
                    plans to implement the e-prescribing standards. Through this
                    followup, we determined these plan sponsors’ and PBMs’ future plans to
                    implement the e-prescribing standards. We also placed phone calls and
                    sent emails to plan sponsors and PBMs to clarify survey responses,
                    when necessary.
                    We surveyed 278 plan sponsors. We received responses from 262 plan
                    sponsors for a 94-percent response rate. Two-hundred eleven responses
                    were provided by 29 of 31 PBMs that we surveyed on behalf of plan
                    sponsors. Responses were provided by 51 of 61 plan sponsors without
                    PBMs.

                    We conducted a pretest of the survey. Where appropriate, we revised
                    the survey based on feedback from this pretest.




                        23 The plan year begins in January and ends in December.




 OEI-05-08-00320    M E D I C A R E P A R T D E - P R E S C R I B I N G S T A N D A R D S : E A R LY A S S E S S M E N T S H O W S P A R T I A L C O N N E C T I V I T Y   8
I N T R O D        U C T             I O N


                    Data Analysis
                    We conducted our analysis at the plan sponsor level because plan
                    sponsors are responsible for implementing the regulations. We did not
                    assess the implementation of e-prescribing standards by individual
                    plans offered by plan sponsors.

                    For our analysis of plan sponsor implementation of e-prescribing
                    standards, we grouped the standards by the e-prescribing connectivity
                    they facilitated: plan-to-prescriber or plan-to-dispenser.
                    Plan-to-prescriber connectivity includes three e-prescribing standards:
                    ASC X12N 270/271, SCRIPT 8.1, and Formulary & Benefits Standard
                    1.0. Plan-to-dispenser connectivity includes only one e-prescribing
                    standard: Telecommunication 5.1.

                    We then categorized plan sponsors’ responses based on implementation
                    status. To analyze plan-to-prescriber connectivity, we used four
                    categories: complete, partial, no connectivity, and missing information.
                    Of the three plan-to-prescriber standards, only Formulary & Benefits
                    Standard 1.0 can be partially implemented because it has four distinct
                    components.

                    In our analysis of these categories, we combined plan sponsors that
                    reported implementation with those that reported that they were
                    planning implementation. For example, the number of plan sponsors
                    that have complete plan-to-prescriber connectivity includes plan
                    sponsors that have complete connectivity and plan sponsors with plans
                    to achieve complete connectivity. We took this approach to give plan
                    sponsors as much credit for their efforts as possible because this is an
                    early implementation review and we collected data before the
                    April 2009 implementation deadline for SCRIPT 8.1 and Formulary &
                    Benefits Standard 1.0.

                    Because Formulary & Benefits Standard 1.0 has several components,
                    we conducted additional analysis of plan sponsors’ implementation of
                    this standard. To analyze plan sponsor implementation of the four
                    Formulary & Benefits Standard 1.0 components, we divided each of the
                    four components into the same four implementation categories outlined
                    in the previous paragraph.

                    To analyze plan-to-dispenser connectivity, we divided the
                    plan-to-dispenser standard into three implementation categories:
                    complete, no connectivity, and missing information. Plan sponsors
                    having complete connectivity have implemented or have plans to


 OEI-05-08-00320    M E D I C A R E P A R T D E - P R E S C R I B I N G S T A N D A R D S : E A R LY A S S E S S M E N T S H O W S P A R T I A L C O N N E C T I V I T Y   9
I N T R O D        U C T             I O N


                    completely implement this standard. We did not have a partial
                    connectivity category because Telecommunication 5.1 cannot be
                    partially implemented.

                    See Appendix B for a detailed description of the plan-to-prescriber,
                    plan-to-dispenser, and Formulary & Benefits Standard 1.0 component
                    analysis categories.
                    Limitations
                    This report relies on self-reported data. We did not validate plan
                    sponsor or PBM responses.
                    Standards
                    This study was conducted in accordance with the “Quality Standards for
                    Inspections” approved by the Council of Inspectors General on Integrity
                    and Efficiency.




 OEI-05-08-00320    M E D I C A R E P A R T D E - P R E S C R I B I N G S T A N D A R D S : E A R LY A S S E S S M E N T S H O W S P A R T I A L C O N N E C T I V I T Y   10
 Δ       F I N D I N G S



    Nearly 80 percent of plan sponsors reported at             Seventy-seven percent of plan
least partial plan-to-prescriber connectivity but few          sponsors responding to our
                      reported complete connectivity           survey reported either partial or
                                                               complete implementation of the
                       plan-to-prescriber standards. Sixty-nine percent of plan sponsors
                       reported that they had partially implemented or planned to partially
                       implement the plan-to-prescriber standards. In contrast, only 8 percent
                       of plan sponsors (23 plan sponsors) reported that they had implemented
                       or planned to implement all three plan-to-prescriber standards to
                       achieve complete plan-to-prescriber connectivity. See Appendix C for
                       plan sponsors’ implementation of each standard. Chart 1 shows the
                       status of plan sponsor plan-to-prescriber connectivity.


      Chart 1. Plan
          Sponsors’
  Plan-to-Prescriber                                                                                      No connectivity
       Connectivity                                                                                            16%
                                                    Planning
                                                     partial                                                                   Missing
                                                 implementation                                                              information
                                                      24%
                                                                                                                                  7%
                           Partial                                                                                                     Complete
                         connectivity                                                                                                implementation
                             69%                                                                                                          0.4%                Complete
                                                                                                                                                             connectivity
                                                                                                                                       Planning
                                                                                                                                       complete
                                                                                                                                                                 8%
                                                                                                                                    implementation
                                                          Partial                                                                         8%
                                                      implementation
                                                           45%




                       Source: OIG analysis of survey data, 2008.


                       While our assessment took place 7 months before the April 2009
                       deadline for two of the plan-to-prescriber standards, it is reasonable to
                       expect that, at that time, all plan sponsors would have been aware of
                       these standards and would have either implemented them or had plans
                       to implement them.

                       Plan sponsors should have known of the final implementation deadline
                       by April 2008. CMS required plan sponsors to implement one of the
                       plan-to-prescriber standards by January 2006. Further, CMS issued
                       the final rule for the other two standards in April 2008. Also, CMS


     OEI-05-08-00320   M E D I C A R E P A R T D E - P R E S C R I B I N G S T A N D A R D S : E A R LY A S S E S S M E N T S H O W S P A R T I A L C O N N E C T I V I T Y   11
F   I N D I N G         S


                      issued a memorandum in September of 2008 reminding plan sponsors of
                      the standards implementation requirements and deadlines. Further,
                      fiscal year 2009 contracts with CMS required that plan sponsors
                      support e-prescribing activities. As in other years, these contracts
                      would have been in place by September.

                      In addition, for plan sponsors to achieve complete connectivity by the
                      April 2009 deadline, implementation planning would have to begin
                      earlier. Industry representatives have indicated that setup and
                      implementation of e-prescribing standards takes 3 to 6 months on
                      average.
                      Sixty-nine percent of plan sponsors reported partial plan-to-prescriber
                      connectivity
                      Forty-five percent of plan sponsors reported that they had partially
                      implemented the plan-to-prescriber standards, and 24 percent reported
                      plans to partially implement the plan-to-prescriber standards. These
                      plan sponsors did not report plans to achieve complete implementation.
                      Partial implementation of these standards limits prescriber access to
                      prescription information at the point of care, which may limit the
                      potential benefits of e-prescribing. In 2008, 69 percent of Part D
                      beneficiaries (18.1 million beneficiaries) were enrolled with plan
                      sponsors that reported partial plan-to-prescriber connectivity.

                      Of the 24 percent of plan sponsors planning to partially implement the
                      plan-to-prescriber standards, 34 percent planned to do so by April 2009.
                      Sixteen percent reported plans to partially implement these standards
                      after April 2009 but did not provide specific dates for implementation.
                      Another 50 percent of plan sponsors did not specify whether they
                      planned to implement these standards before or after April 2009.
                      Eight percent of plan sponsors reported complete plan-to-prescriber
                      connectivity
                      Of the 8 percent of plan sponsors reporting complete plan-to-prescriber
                      connectivity, one plan sponsor reported that it had completely
                      implemented all three plan-to-prescriber standards. The remaining
                      22 plan sponsors reported plans to completely implement the
                      plan-to-prescriber standards. Approximately 30 percent of Part D
                      beneficiaries (7.8 million beneficiaries) were enrolled with these 23 plan
                      sponsors in 2008. Approximately 90 percent reported that they would
                      implement all three of the standards by the April 2009 deadline.




    OEI-05-08-00320   M E D I C A R E P A R T D E - P R E S C R I B I N G S T A N D A R D S : E A R LY A S S E S S M E N T S H O W S P A R T I A L C O N N E C T I V I T Y   12
F   I N D I N G         S


                      Sixteen percent of plan sponsors reported no plans to achieve
                      plan-to-prescriber connectivity
                      Plan sponsors that do not implement any of the plan-to-prescriber
                      standards limit potential e-prescribing benefits, such as savings from
                      increased generic substitution and decreased adverse drug events. In
                      2008, approximately 200,821 beneficiaries, or less than 1 percent, of
                      Part D beneficiaries were enrolled with these plan sponsors.

                      Seventy percent of these plan sponsors are Program of All-Inclusive Care
                      for the Elderly plan sponsors that may be exempt from the standards.
                      Seventy percent of plan sponsors that reported no plans to implement
                      any of the plan-to-prescriber standards were Program of All-Inclusive
                      Care for the Elderly (PACE) plan sponsors. 24 Of these 30 PACE plan
                      sponsors, 18 reported that they are exempt from implementing the
                      plan-to-prescriber standards because they are PACE plan sponsors.
                      Some of these PACE plan sponsors offered a more specific explanation.
                      They stated that they are exempt because they are closed prescribing
                      systems. They reported that their prescriptions for beneficiaries are
                      prescribed and filled internally or through a contracted pharmacy.

                      A few PACE plan sponsors provided additional reasons for not
                      implementing the plan-to-prescriber standards related to being a closed
                      prescribing system. Four PACE plan sponsors do not plan to implement
                      SCRIPT 8.1. They reported that as PACE employees in a closed
                      prescribing system, PACE prescribers already have access to
                      beneficiaries’ medication history. One PACE plan sponsor expressed
                      confusion about whether it is required to implement the e-prescribing
                      standards. The plan sponsor asked for clarification from CMS about its
                      responsibilities regarding the e-prescribing standards.

                      Although some of these plan sponsors may be exempt from
                      implementing SCRIPT 8.1 under the closed system exemption, PACE
                      plan sponsors are not explicitly exempt. In addition, they are not
                      exempt from implementing the remaining plan-to-prescriber standards,
                      as the exemption covers only SCRIPT 8.1. None of the PACE plan
                      sponsors provided us with official documentation stating that they were
                      exempt from implementing the e-prescribing standards.



                          24 A PACE organization is a not-for-profit private or public entity that is engaged

                      primarily in providing comprehensive medical and social services. PACE services use an
                      interdisciplinary team approach in an adult day health center.



    OEI-05-08-00320   M E D I C A R E P A R T D E - P R E S C R I B I N G S T A N D A R D S : E A R LY A S S E S S M E N T S H O W S P A R T I A L C O N N E C T I V I T Y   13
F   I N D I N G         S


                      A few PACE plan sponsors provided other reasons for not planning to
                      implement the plan-to-prescriber standards. Five PACE plan sponsors
                      stated that they do not need to implement Formulary & Benefits
                      Standard 1.0 because they do not use formularies. One other PACE
                      plan sponsor expressed concern about the financial burden that may be
                      caused by implementing the standards.

                      An additional 28 percent of plan sponsors gave no reason for not planning
                      to implement any of the plan-to-prescriber standards. Twelve plan
                      sponsors gave no reason for not planning to implement any of the
                      plan-to-prescriber standards. Three PBMs represent 10 of these plan
                      sponsors. The other two plan sponsors do not work with a PBM.


Problems implementing Formulary & Benefits                   Because only 8 percent of plan
Standard 1.0 limit complete plan-to-prescriber               sponsors reported that they had
                                  connectivity               completely implemented or
                                                             planned to completely implement
                      all four components of Formulary & Benefits Standard 1.0, complete
                      plan-to-prescriber connectivity is also low. On the other hand, over
                      70 percent of plan sponsors reported complete implementation of each of
                      the other two plan-to-prescriber standards. In particular, 76 percent
                      reported complete implementation of ASC X12N 270/271 and 79 percent
                      reported complete implementation of SCRIPT 8.1. Despite these high
                      implementation rates, plan sponsors’ overall plan-to-prescriber
                      connectivity is low because plan sponsors have to completely implement
                      all three plan-to-prescriber standards to achieve complete
                      plan-to-prescriber connectivity. For more details on the implementation
                      status of each plan-to-prescriber standard, see Table C1 in Appendix C.
                      Plan sponsors reported varying rates of complete implementation of the
                      four components that make up Formulary & Benefits Standard 1.0:
                      Formulary Status List, Formulary Alternatives List, Coverage List, and
                      Copayment List. Complete implementation rates for each of the four
                      components ranged from a high of 71 percent to a low of 24 percent.
                      Only one plan sponsor reported complete implementation of all four
                      components.




    OEI-05-08-00320   M E D I C A R E P A R T D E - P R E S C R I B I N G S T A N D A R D S : E A R LY A S S E S S M E N T S H O W S P A R T I A L C O N N E C T I V I T Y   14
F   I N D I N G           S


                        Fewer plan sponsors reported complete implementation of the Coverage
                        List and the Copayment List than the Formulary Status List and the
                        Formulary Alternatives List
                        Complete implementation rates were the lowest for the Coverage List
                        and the Copayment List. Thirty percent and twenty-four percent of
                        plan sponsors reported that they had completely implemented or
                        planned to completely implement the Coverage List and the Copayment
                        List, respectively. In contrast, 71 percent and 56 percent of plan
                        sponsors reported that they had completely implemented or planned to
                        completely implement the Formulary Status List and the Formulary
                        Alternatives List, respectively. Table 2 provides the implementation
                        status of each component of Formulary & Benefits Standard 1.0. For
                        more details on the implementation status by component, see Table C2
                        in Appendix C.

                       Table 2: Plan Sponsors’ Implementation of Formulary & Benefits Standard
                       1.0 Components


                                                                     Complete                          Partial                      Not Planning                             Missing
                       Component                                Implementation                  Implementation                    Implementation                         Information
                       Formulary Status List
                       (n = 262)                                                   71%                                7%                               2%                           20%
                       Formulary Alternatives
                       List
                       (n = 262)                                                   56%                                0%                             24%                            20%
                       Coverage List*
                       (n = 262)                                                   30%                              37%                              13%                            21%
                       Copayment List *
                       (n = 262)                                                   24%                              14%                              44%                            20%
                      * Totals add to greater than 100 percent because of rounding.
                      Source: OIG analysis of survey data, 2008.

                        Plan sponsors offered reasons for not completely implementing the
                        Formulary Alternatives List, Coverage List, and Copayment List. 25 In
                        some cases, the reasons were specific to the component. For example,
                        some plan sponsors not planning to implement the Formulary
                        Alternatives List stated that this component duplicates information in
                        the Formulary Status List. Others reported that determining
                        alternative drug information was a clinical decision they did not feel
                        they were in a position to make. For the Coverage List and the
                        Copayment List, plan sponsors reported difficulties transmitting



                          25 Plan sponsors did not offer any reasons for not completely implementing the
                        Formulary Status List.



    OEI-05-08-00320     M E D I C A R E P A R T D E - P R E S C R I B I N G S T A N D A R D S : E A R LY A S S E S S M E N T S H O W S P A R T I A L C O N N E C T I V I T Y   15
F   I N D I N G         S


                      complete data, which prevents complete implementation of these
                      components.
                      The batch data upload process is a barrier to complete implementation of
                      the Coverage List and the Copayment List
                      According to 80 percent of plan sponsors that lacked complete
                      plan-to-prescriber connectivity, the batch data upload process is a
                      barrier to complete implementation of the Coverage List and the
                      Copayment List components of Formulary & Benefits Standard 1.0.
                      Eleven PBMs represent these plan sponsors.

                      Plan sponsors explained that their current processing systems are not
                      compatible with the batch process. Their processing systems are built
                      to handle real-time transactions for claims processing. Plan sponsors
                      reported that they would have to make custom changes to their systems
                      to make them compatible with batch processing. Some plan sponsors’
                      PBMs have taken this step but reported that it is expensive and does
                      not enable plan sponsors to transmit comprehensive beneficiary-level
                      data for coverage and copayment information.

                      According to industry comments in CMS’s final e-prescribing rule, using
                      the batch process instead of a real-time process results in beneficiary
                      information that is often outdated and lacks detail. 26 This can lead to
                      higher copayments for patients. 27 Thus, it prevents plan sponsors,
                      PBMs, prescribers, and beneficiaries from fully realizing the benefits of
                      e-prescribing. Figure 3 explains limitations of the batch data upload
                      process.




                          26 73 Fed. Reg. 18918, 18924 (Apr. 7, 2008).
                          27 Ibid.




    OEI-05-08-00320   M E D I C A R E P A R T D E - P R E S C R I B I N G S T A N D A R D S : E A R LY A S S E S S M E N T S H O W S P A R T I A L C O N N E C T I V I T Y   16
F     I N D I N G                 S




     Figure 3: Explanation and Examples of Problems With the Batch Data Upload Process in
     Formulary & Benefits Standard 1.0

     Coverage and copay data are inadequately represented in a batch format as the batch data are provided only
     once a month and are often out of date. Additionally, batch data do not provide the patient level of information
     required to display the patient’s coverage and copay information. For example:

     • If a medication requires a coverage review but that review was already completed and the medication approved
       for a specific member, there is no way to display the patient’s status in a batch framework.

     • Most batch copay displays provide a simple reference point (for example, symbols that represent copay
       amounts ranging from low to high: $, $$, $$$), not the actual copay amount; this level of information is not as
       useful to a prescriber or patient as knowing the actual expense for the patient.


    Source: OIG analysis of survey data, 2008.

                                CMS has also recognized the importance of a real-time formulary and
                                benefits standard. In the April 2008 final rule, CMS indicated that a
                                real-time standard for formulary and benefits information would be an
                                important step towards realizing the potential benefit of the standard. 28
                                CMS also stated that once the current Formulary & Benefits Standard
                                1.0 is widely used, it expects marketplace forces to encourage
                                incorporation of a real-time standard for formulary and benefits
                                information. 29
                                                                       Five percent of plan sponsors
     Only 5 percent of plan sponsors reported no
                                                                       (12 plan sponsors) responding to
                  plan-to-dispenser connectivity                       our survey reported no plans to
                                                                       implement the plan-to-dispenser
                                standard, which had an implementation date of January 2006. In 2008,
                                less than 1 percent of Part D beneficiaries (17,375 beneficiaries) were
                                enrolled with these plan sponsors. All 12 plan sponsors are PACE plan
                                sponsors that also reported no plans to implement the plan-to-prescriber
                                standards. Ten of the twelve plan sponsors reported that they did not
                                implement the plan-to-dispenser standard because, as closed
                                prescribing systems, they believed they were exempt from e-prescribing
                                requirements. Entities that only send prescriptions within their
                                organization are exempt from implementing SCRIPT 8.1, but no
                                exemption exists for the plan-to-dispenser standard,


                                    28 73 Fed. Reg. 18918, 18924 (Apr. 7, 2008).
                                    29 Ibid.




     OEI-05-08-00320            M E D I C A R E P A R T D E - P R E S C R I B I N G S T A N D A R D S : E A R LY A S S E S S M E N T S H O W S P A R T I A L C O N N E C T I V I T Y   17
F   I N D I N G          S


                       Telecommunication 5.1. None of these PACE plan sponsors requested
                       an exemption from CMS. Chart 2 shows the status of plan sponsor
                       plan-to-dispenser connectivity.


    Chart 2. Plan
                                                                                     Planning complete
        Sponsors’                                                                     implementation                      No connectivity
Plan-to-Dispenser                                                                           3%                                 5%
     Connectivity
                                                                                                                                               Missing
                                                                                                                                             information
                                                                                                                                                 12%
                               Complete
                              connectivity
                                 83%




                                                                        Complete
                                                                      implementation
                                                                           80%




                      Source: OIG analysis of survey data, 2008.


                       Eighty-three percent of plan sponsors reported that they had
                       implemented or planned to implement Telecommunication 5.1.
                       Eighty percent of plan sponsors reported that they had implemented the
                       standard and an additional 3 percent of plan sponsors reported
                       planning to implement the standard. In 2008, 78 percent of Part D
                       beneficiaries (20.4 million beneficiaries) were enrolled with these plan
                       sponsors.

                       An additional 12 percent of plan sponsors did not provide any
                       information about implementation of the plan-to-dispenser standard.
                       Twenty of these plan sponsors are PACE plan sponsors, one PBM
                       represents five plan sponsors, and seven plan sponsors have no PBMs.




    OEI-05-08-00320    M E D I C A R E P A R T D E - P R E S C R I B I N G S T A N D A R D S : E A R LY A S S E S S M E N T S H O W S P A R T I A L C O N N E C T I V I T Y   18
B   A N N        E R       2 N D                     P A G E
Δ       R E C O M M E N D A T I O N S



                       As of September 2008, most plan sponsors had at least partial
                       plan-to-prescriber connectivity but few reported complete connectivity.
                       Plan-to-prescriber connectivity is limited because of problems with
                       batch processing that prevent plan sponsors from completely
                       implementing Formulary & Benefits Standard 1.0.

                       Partial plan-to-prescriber connectivity limits the potential benefits of
                       e-prescribing because most e-prescribing benefits rely on prescriber
                       access to prescription information at the point of care. These benefits
                       include decreased adverse drug events, increased clinical efficiency, and
                       increased generic utilization resulting in savings. A 2008 study
                       indicated that, with access to formulary information, prescribers
                       prescribed lower cost medications, leading to an estimated savings of
                       $845,000 per 100,000 patients.

                       On the other hand, 83 percent of plan sponsors reported complete
                       plan-to-dispenser connectivity. Only 5 percent of plan sponsors reported
                       no plans to implement the plan-to-dispenser standard. All of these plan
                       sponsors are PACE plan sponsors.

                       Although CMS educational activities in the fall of 2008 may have
                       increased plan sponsor awareness of requirements, complete
                       connectivity remains a problem likely because of plan sponsors’
                       technical difficulties with the batch data upload process. Most plan
                       sponsors indicated that their implementation is limited because of
                       system incompatibility with Formulary & Benefits Standard 1.0 rather
                       than a lack of knowledge about requirements.
                       Based on the results of our review, CMS should:
                       Ensure that plan sponsors completely implement the plan-to-prescriber and
                       plan-to-dispenser standards
                       To ensure plan sponsor compliance with requirements to implement
                       e-prescribing standards, CMS could implement all of the following:

                       •       Continue to educate plan sponsors about e-prescribing standards
                               requirements. In September 2008, CMS issued a memorandum
                               clarifying e-prescribing requirements for plan sponsors. In October
                               2008, CMS held an e-prescribing conference with educational
                               sessions and presentations about e-prescribing standards and the
                               effective date for standards implementation. In addition, CMS has
                               conducted e-prescribing open door forums to educate plan sponsors
                               and prescribers about e-prescribing requirements.

    OEI-05-08-00320    M E D I C A R E P A R T D E - P R E S C R I B I N G S T A N D A R D S : E A R LY A S S E S S M E N T S H O W S P A R T I A L C O N N E C T I V I T Y   19
R   E C O        M M E N D A T                          I O N               S


                      •       Clarify the e-prescribing standard exemption for closed prescribing
                              systems and the way to claim the exemption when appropriate.
                              CMS should consider clarifying the exemption with PACE plan
                              sponsors specifically.

                      •       Use available compliance mechanisms when necessary, such as
                              corrective action plans and civil monetary penalties, to bring plan
                              sponsors into compliance.
                      Collaborate with plan sponsors and industry representatives to address
                      barriers to full implementation of Formulary & Benefits Standard 1.0
                      CMS should collaborate with plan sponsors, PBMs, and
                      standards-development organizations to address the batch processing
                      problems identified in this report. CMS could consider pilot-testing a
                      real-time standard that enables plan sponsors to transmit
                      beneficiary-specific formulary and benefits information. Several plan
                      sponsors and PBMs indicated that a real-time formulary and benefits
                      standard would enable them to transmit comprehensive
                      beneficiary-specific formulary and benefits information to prescribers.
                      Currently, a few industry organizations are developing a real-time
                      formulary and benefits standard. CMS acknowledged the benefits of a
                      real-time formulary and benefits standard in the comment and response
                      section of the April 2008 final e-prescribing rule.


                      AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                      RESPONSE
                      CMS concurred with each of our recommendations. To address our
                      recommendations, CMS will continue to educate plan sponsors about
                      e-prescribing requirements. If necessary, CMS will also use available
                      compliance mechanisms to bring plan sponsors into compliance. In
                      addition, CMS plans to clarify the e-prescribing requirements for PACE
                      plan sponsors. In the 2011 PACE application, CMS will formally waive
                      the e-prescribing requirements for PACE plan sponsors. Finally, CMS
                      plans to continue collaboration with the National Council of Prescription
                      Drug Program, Inc., to continually update and develop new e-prescribing
                      standards.

                      Although CMS concurred with our recommendations, it asserted there
                      were significant methodological limitations with our data collection and
                      analysis, resulting in inflated findings of plan sponsor noncompliance with
                      e-prescribing standards.


    OEI-05-08-00320   M E D I C A R E P A R T D E - P R E S C R I B I N G S T A N D A R D S : E A R LY A S S E S S M E N T S H O W S P A R T I A L C O N N E C T I V I T Y   20
R   E C O        M M E N D A T                          I O N               S


                      Specifically, CMS asserted that our results would have likely been
                      different if our plan sponsor survey had been conducted closer to the
                      implementation deadline. First, CMS stated that our surveys did not
                      capture the impact of CMS’s plan sponsor e-prescribing educational
                      activities, which clarified that all standards had to be adopted. Second,
                      CMS stated that, at the time of our survey, plan sponsors did not fully
                      appreciate the potential impact of Medicare Improvements for Patients
                      and Providers Act of 2008 (MIPPA) e-prescribing incentive payments. As
                      a result, CMS stated it believes that, after our survey, more plan sponsors
                      may have decided to comply with e-prescribing requirements to prepare
                      for the increasing number of prescribers adopting e-prescribing to obtain
                      MIPPA incentive payments.

                      If we had conducted our survey at a later date, we acknowledge that
                      implementation rates could have risen. However, we do not believe that
                      the results reported here are inflated. While CMS’s educational activities
                      clarified requirements and MIPPA may have increased the desire to
                      implement the standards, neither would have changed the technical
                      difficulties reported in our findings. The primary reason plan sponsors
                      reported incomplete implementation of the standards was technical
                      difficulties with Formulary & Benefits Standard 1.0, which CMS’s
                      educational activities did not address.

                      CMS also noted that it does not consider plan sponsors to be out of
                      compliance with the e-prescribing standards if prescribers do not request
                      e-prescribing information. Specifically, CMS does not expect many
                      prescribers to request information on the Formulary Alternatives List
                      because this information is available through other sources. According to
                      CMS’s response, as long as no prescribers request the Formulary
                      Alternatives List, then a plan sponsor is not out of compliance for not
                      implementing the Formulary Alternatives List.

                      We note that the primary focus of this study was not on plan sponsors’
                      compliance with the e-prescribing standards. Rather, this study focused
                      on plan sponsors’ ability to support and implement the foundation for
                      e-prescribing connectivity between plan sponsors and prescribers.
                      Because this study is focused on plan sponsors’ ability to support
                      e-prescribing connectivity with prescribers, our findings describe the
                      completeness of plan sponsors’ implementation of the e-prescribing
                      standards that CMS identified as the foundation for connectivity.

                      In addition, although information in the Formulary Alternatives List may
                      be available from other sources, this and other e-prescribing standards are

    OEI-05-08-00320   M E D I C A R E P A R T D E - P R E S C R I B I N G S T A N D A R D S : E A R LY A S S E S S M E N T S H O W S P A R T I A L C O N N E C T I V I T Y   21
R   E C O        M M E N D A T                          I O N               S


                      still required if at least one prescriber requests the information provided
                      by those standards, according to CMS guidance. Further, our findings
                      show nonimplementation of the Formulary Alternatives List is not the
                      main contributor to plan sponsors’ reported problems with Formulary &
                      Benefits Standard 1.0. Plan sponsors reported higher implementation of
                      the Formulary Alternatives List and the Formulary Status List than the
                      Copayment List and the Coverage List. Plan sponsors reported that the
                      batch data upload process prevented them from fully implementing the
                      Copayment List and the Coverage List.

                      Finally, CMS recommended that we remove PACE plan sponsors from our
                      findings because CMS has now waived the e-prescribing requirement for
                      PACE plan sponsors. We did not remove PACE plan sponsors from our
                      findings because, at the time of our data collection, PACE plan sponsors
                      were required to implement e-prescribing standards. In addition, our
                      findings show that PACE plan sponsors were confused about the
                      e-prescribing standards. Based on this finding, we suggested that CMS
                      clarify requirements for PACE plan sponsors, which it has now done.

                      For the full text of CMS’s comments, see Appendix D.




    OEI-05-08-00320   M E D I C A R E P A R T D E - P R E S C R I B I N G S T A N D A R D S : E A R LY A S S E S S M E N T S H O W S P A R T I A L C O N N E C T I V I T Y   22
Δ   A P P E N D I X                                ~            A

                  Formulary & Benefits Standard 1.0 Components

                  Formulary & Benefits Standard 1.0 is composed of four components:
                  Formulary Status List, Formulary Alternatives List, Coverage List, and
                  Copayment List. 30 Each component includes several elements that can
                  assist prescribers in prescribing the most appropriate drug for a
                  beneficiary.

                  The four components are: 31
                      1. Formulary Status List: This component provides prescribers with
                         the drug name and indicates whether the drug is preferred, not
                         preferred, or not reimbursable according to a plan’s formulary.

                      2. Formulary Alternatives List: This component provides prescribers
                         with a list of alternative drugs, such as generic drugs, low-cost
                         alternatives, and therapeutically equivalent alternatives that are
                         covered for a beneficiary.

                      3. Coverage List: This component provides prescribers with
                         information on the conditions under which the patient’s policy covers
                         a medication, such as prior authorization requirements, step therapy
                         lists, 32 quantity limits, age limits, and gender limits.
                      4. Copayment List: This component provides the cost of the
                         prescription to the beneficiary, such as dollar or percentage
                         copayment amounts, copayment tiers (higher tiers mean higher
                         copayments), and prescription quantity covered under the
                         copayment.




                    30 National Council for Prescription Drug Programs, Inc. (NCPDP). NCPDP Formulary
                  and Benefits Standard Implementation Guide excerpt, version 2.0, May 2008.
                      31 Ibid.
                      32 A step therapy list describes a progression of drugs for a medical condition, beginning
                  with the most cost-effective and safest medications and then moving on to more costly or
                  risky medications if necessary.



OEI-05-08-00320   M E D I C A R E P A R T D E - P R E S C R I B I N G S T A N D A R D S : E A R LY A S S E S S M E N T S H O W S P A R T I A L C O N N E C T I V I T Y   23
               Δ           A P P E N D I X                                        ~            B

                                                 Analysis Categories for Plan-to-Prescriber and Plan-to-Dispenser
                                                 Connectivity



 Table B1: Detailed Description of Plan-to-Prescriber and Plan-to-Dispenser Connectivity

 E-Prescribing               Implementation        Implementation
 Connectivity                Category              Phase                           Description
                                                                                   Plan sponsor has completely implemented Accredited Standards Committee (ASC)
                                                   Implemented                     X12N 270/271, SCRIPT 8.1, and all four components of Formulary & Benefits
                                                                                   Standard 1.0.
                             Complete
                                                                                   Plan sponsor has plans to completely implement all three plan-to-prescriber
                             connectivity
                                                                                   standards. Plan sponsor may have implemented one or two standards and is
                                                   Planning
                                                                                   planning to implement the rest. For example, the plan sponsor has completely
                                                   implementation
                                                                                   implemented ASC X12N 270/271 and is planning to implement SCRIPT 8.1 and all
                                                                                   four components of Formulary & Benefits Standard 1.0.

                                                                                   Plan sponsor has implemented some, but not all, of the plan-to-prescriber
                                                                                   standards and has no plans to implement the other standards. For example, the
 Plan-to-Prescriber                                Implemented
                                                                                   plan sponsor has implemented ASC X12N 270/271 and SCRIPT 8.1 but is not
                                                                                   planning to implement Formulary & Benefits Standard 1.0.
                             Partial
                             connectivity                                          Plan sponsor has plans to implement some, but not all, of the plan-to-prescriber
                                                                                   standards. For example, the plan sponsor plans to implement ASC X12N 270/271,
                                                   Planning
                                                                                   SCRIPT 8.1, and two of the four components of Formulary & Benefits Standard 1.0.
                                                   implementation
                                                                                   It has no plans to implement the remaining two Formulary & Benefits Standard 1.0
                                                                                   components.

                                                                                   Plan sponsor has no plans to implement ASC X12N 270/271, SCRIPT 8.1, or any of
                             No connectivity       N/A
                                                                                   the four components of Formulary & Benefits Standard 1.0.
                             Missing
                                                   N/A                             Plan sponsor did not answer any plan-to-prescriber questions.
                             information

                             Complete              Implemented                     Plan sponsor has implemented Telecommunication 5.1.
                             connectivity          Planning
                                                                                   Plan sponsor has plans to implement Telecommunication 5.1.
                                                   implementation
 Plan-to-Dispenser
                             No connectivity       N/A                             Plan sponsor has no plans to implement Telecommunication 5.1.

                             Missing
                                                   N/A                             Plan sponsor did not answer the plan-to-dispenser question.
                             information
Source: Office of Inspector General (OIG) analysis of survey data, 2008.


                                                 Analysis Categories for the Formulary & Benefits Standard 1.0 Components
                                                 To assess plan sponsor implementation of each of the four Formulary &
                                                 Benefits Standard 1.0 components, we divided plan sponsors into four
                                                 implementation categories. Table B2 provides a detailed description of
                                                 the categories for the Formulary & Benefits Standard 1.0 components:
                                                 Formulary Status List, Formulary Alternatives List, Coverage List, and
                                                 Copayment List.




                      OEI-05-08-00320            M E D I C A R E P A R T D E - P R E S C R I B I N G S T A N D A R D S : E A R LY A S S E S S M E N T S H O W S P A R T I A L C O N N E C T I V I T Y   24
             A    P    P E N D              I X            ~            B




 Table B2: Detailed Description of Implementation Categories for the Formulary & Benefits Standard 1.0
 Components
 Implementation Category              Implementation Phase                           Description
                                      Implemented                                    Plan sponsor has implemented all elements of a component.
 Complete
                                      Planning implementation                        Plan sponsor plans to completely implement all elements of a component.
                                                                                     Plan sponsor has completely implemented some, but not all, of the
                                                                                     elements of a component. For example, a plan sponsor that has partially
                                      Implemented
                                                                                     implemented Coverage List has implemented quantity limits and age limits
 Partial
                                                                                     but not the other Coverage List elements.
                                                                                     N/A – We did not ask plan sponsors to indicate plans to partially implement
                                      Planning implementation
                                                                                     each component.
 Not planning                         N/A                                            Plan sponsor has no plans to implement any elements of a component.
 Missing information                  N/A                                            Plan sponsor did not answer any component questions.
Source: OIG analysis of Formulary & Benefits Standard 1.0, 2008.




                 OEI-05-08-00320            M E D I C A R E P A R T D E - P R E S C R I B I N G S T A N D A R D S : E A R LY A S S E S S M E N T S H O W S P A R T I A L C O N N E C T I V I T Y   25
       A    P    P E N D             I X             ~            C
    Δ           A P P E N D I X                                        ~            C


                                       Implementation of Plan-to-Prescriber Standards
                                       More plan sponsors reported complete implementation of Accredited
                                       Standards Committee (ASC) X12N 270/271 and SCRIPT 8.1 than
                                       Formulary & Benefits Standard 1.0. Table C1 shows the
                                       implementation status of each plan-to-prescriber standard.



 Table C1: Plan Sponsors’ Current and Planned Implementation of Plan-to-Prescriber Standards

                                 Complete Implementation                                     Partial Implementation
                                                           Planning                                                     Planning                    Not Planning                          Missing
 Standard                     Implemented            Implementation                   Implemented                 Implementation                  Implementation                      Information
 ASC X12N 270/271
 (n = 262)                              58%                              18%                          N/A                             N/A                             20%                         4%
 SCRIPT 8.1
 (n = 262)                              45%                              34%                          N/A                             N/A                             16%                         5%
 Formulary & Benefits
 Standard 1.0*
 (n = 262)                              0.4%                               8%                        46%                             20%                              16%                         9%
* Total does not add to 100 percent because of rounding.
Source: Office of Inspector General (OIG) analysis of survey data, 2008.

                                       ASC X12N 270/271. Fifty-eight percent of plan sponsors reported that
                                       they had completely implemented ASC X12N 270/271. These plan
                                       sponsors can respond to prescribers’ requests about beneficiary
                                       eligibility at the point of care. Prescribers can use this information to
                                       identify beneficiaries’ eligibility for drug benefits. As a result, a
                                       prescriber may see administrative cost savings because of fewer
                                       callbacks from a dispenser requesting permission to change the
                                       prescription to a drug that is covered for a beneficiary.

                                       An additional 18 percent of plan sponsors reported plans to completely
                                       implement ASC X12N 270/271. Of these plan sponsors, 86 percent
                                       reported plans to implement the standard by April 2009. Nine percent
                                       reported plans to implement the standard after April 2009 but did not
                                       provide specific dates for implementation. Five percent of plan sponsors
                                       did not provide any information about their timeframe for implementing
                                       this standard. Plan sponsors did not provide reasons why they had not
                                       implemented ASC X12N 270/271 by the January 2006 deadline.

                                       Twenty percent of plan sponsors reported no plans to implement
                                       ASC X12N 270/271. Additionally, 4 percent of plan sponsors did not
                                       reply to questions about this standard.

                                       SCRIPT 8.1. Forty-five percent of plan sponsors reported that they had
                                       completely implemented SCRIPT 8.1. These plan sponsors can provide

           OEI-05-08-00320            M E D I C A R E P A R T D E - P R E S C R I B I N G S T A N D A R D S : E A R LY A S S E S S M E N T S H O W S P A R T I A L C O N N E C T I V I T Y   26
A   P   P E N D       I X            ~            C


                      prescribers with a list of Part D drugs dispensed to beneficiaries.
                      Prescribers can use this medication history to reduce adverse drug
                      events, such as drug-to-drug allergies or interactions.

                      An additional 34 percent of plan sponsors reported plans to completely
                      implement SCRIPT 8.1. Of these plan sponsors, 82 percent reported
                      plans to implement SCRIPT 8.1 by the April 2009 deadline.
                      Sixteen percent plan to implement the standard after April 2009 but did
                      not provide specific dates for implementation. Two percent of plan
                      sponsors did not provide any information about their timeframe for
                      implementing this standard.
                      Sixteen percent of plan sponsors reported no plans to implement
                      SCRIPT 8.1. Additionally, 5 percent of plan sponsors did not reply to
                      questions about this standard.

                      Formulary & Benefits Standard 1.0. One plan sponsor, or less than
                      1 percent of plan sponsors, reported that it had completely implemented
                      all components of Formulary & Benefits Standard 1.0. This plan
                      sponsor can provide prescribers with complete formulary and benefits
                      information for beneficiaries. Prescribers can use this information to
                      save beneficiaries money by identifying and prescribing low-cost,
                      alternative drugs. Prescribers and dispensers may also save on
                      administrative costs by reducing callbacks.

                      An additional 8 percent of plan sponsors reported plans to completely
                      implement all elements of Formulary & Benefits Standard 1.0. Of these
                      plan sponsors, 64 percent planned to completely implement the
                      standard by the April 2009 deadline. Fourteen percent plan
                      implementation after April 2009 but did not provide specific dates.
                      Twenty-two percent of plan sponsors did not provide any information
                      about their timeframe for implementing this standard.

                      Sixteen percent of plan sponsors reported no plans to implement
                      Formulary & Benefits Standard 1.0. Additionally, 9 percent of plan
                      sponsors did not reply to questions about this standard.
                      Implementation Detail for Formulary & Benefits Standard 1.0 Components
                      Table C2 shows plan sponsors’ implementation status for each
                      Formulary & Benefits Standard 1.0 component.




    OEI-05-08-00320   M E D I C A R E P A R T D E - P R E S C R I B I N G S T A N D A R D S : E A R LY A S S E S S M E N T S H O W S P A R T I A L C O N N E C T I V I T Y   27
   A    P P       E    N    D I      X          ~           C




 Table C2: Plan Sponsors’ Implementation of Formulary & Benefits Standard 1.0 Components

                                  Complete Implementation                                  Partial Implementation
                                                    Planning                                                 Planning                                Not Planning                             Missing
 Component                      Implemented Implementation                             Implemented Implementation                                  Implementation                         Information
 Formulary Status List
 (n = 262)                                51%                              20%                          7%                             N/A                               2%                          20%
 Formulary
 Alternatives List
 (n = 262)                                23%                              33%                          0%                             N/A                             24%                           20%
 Coverage List*
 (n = 262)                                10%                              20%                        37%                              N/A                             13%                           21%
 Copayment List*
 (n = 262)                                   3%                            20%                        14%                              N/A                             42%                           20%
* Totals do not add to 100 percent because of rounding.
Source: OIG analysis of survey data, 2008.




                OEI-05-08-00320              M E D I C A R E P A R T D E - P R E S C R I B I N G S T A N D A R D S : E A R LY A S S E S S M E N T S H O W S P A R T I A L C O N N E C T I V I T Y   28
..     A P PEN D                              x                   D




      Agency Comments

        . .""''Vlot..



                                                                                                              G~nt~rs fOr Msc;icare & MØc;lcalc; Seivices
        r L PEIAREN OF_em" HUJ;ERCf
         '~,-:'r '                                                                                            Ad11inistriitor
                                                                                                              Washington, DC 20201




                        DATE: AUG 2 i 2009
                        TO: Daniel R. Levinson
                                         Inspector General

                        FROM: Charle.n Frizzera
                                         Acting Administrator


                        SUBJECT: Offce of Inspector Geneta (OlG) Draf Report: "Medicare Part DE-Prescribing
                                         Standards: Early Assessment Shows Partial         Connectivity"(OEl-05-08-00320)


                        Than you forthe opportunity to review and comment on this OIG draft report discussing the
                        extent of Medìcare Pai1 0 sponsors' implementation of electronic prescribiii.~ (e-prescribing)

                        standards to support connectivity with prescrìbers and dispensers. The Centers for Medicare &
                        Medicaid Services (CMS) fully supports the advancement ofe-prescribing and is committed to
                        ensuring that the Part D sponsors support the adopted Part 0 e-prescribing standards.

                        The CMS generally concurs with the report's recommendations. However. we believdhatthere
                        W~re significant rnethodologicallimitations in the data collection and analysis utilized in this
                        report, which inflated the findings related to sponsor non-compliance with our e-prescribjtig                                       ,
                        stadards. As the sponsoi:survey used in this        report was conducted 7 months prior to the
                        deadline forcornpliance with two ofthe e~prescribing staiidards examined in this repolt. the
                        report failed to capHlle the impact of    the sponsor   and provider e-prescribing education        and
                        outreach activities that occUlTed aftçr the date upon whjchthe survey' \Vas complete. As
                    , discussed in mOre detail below. the res!Jlts would have likely bèen difterel1jf the survey waS
                     .conducted c1oserto theimplementation deadline.

                        The report   findings related to the National CouncilofPrescdption Drug Programs (NCPDP)
                        Formular & Benefits Standard, Version i, Release 0 (NCPDP Fomnílary ahd Benefits 1.0) are
                        the main driver behind the conclusion that most sponsors are only  partially coinpliant with
                        'provider to plan" communication standards. CMS believes it is important to clarify two issues
                        Wi~h the findings in this report with respect to the discussion ofthis standard in the report:

                            · First, the findings regarding implementation status reflect initial confusion among Part 0
                                sponsors that eMS addressed in a Septemher 20Ò8 memorandum to Part D sponsors.
                                Further claritication was ptovided at the October 2008 national e-prescribing conference.
                                Specifically, many Part D sponsors initially beHcvéd that they only needed to support
                                transactions using the Formulary Status List function of the NCPOP Formulary &
                                Benefits 1.0 staiidill'd. The Septernbel' 2008 memorandum clarified that Part 0 sponsors




 OEI.05.08.00320              MEDICARE PART DE-PRESCRIBING STANDARDS: EARLY ASSESSMENT SHOWS PARTIAL CONNECTIVITY 29
A   P   P E N D       I X            ~            D




    OEI-05-08-00320   M E D I C A R E P A R T D E - P R E S C R I B I N G S T A N D A R D S : E A R LY A S S E S S M E N T S H O W S P A R T I A L C O N N E C T I V I T Y   30
A   P   P E N D       I X            ~            D




    OEI-05-08-00320   M E D I C A R E P A R T D E - P R E S C R I B I N G S T A N D A R D S : E A R LY A S S E S S M E N T S H O W S P A R T I A L C O N N E C T I V I T Y   31
A   P   P E N D       I X            ~            D




    OEI-05-08-00320   M E D I C A R E P A R T D E - P R E S C R I B I N G S T A N D A R D S : E A R LY A S S E S S M E N T S H O W S P A R T I A L C O N N E C T I V I T Y   32
A   P   P E N D       I X            ~            A
Δ       A C K N O W L E D G M E N T S

                      This report was prepared under the direction of Ann Maxwell, Regional
                      Inspector General for Evaluation and Inspections in the Chicago
                      regional office, and Thomas Komaniecki, Deputy Regional Inspector
                      General.

                      Kelly Waldhoff served as the project leader for this study. Other
                      principal Office of Evaluation and Inspections staff from the Chicago
                      regional office who contributed to the report include Suzanne Bailey,
                      Abby Lopez, and Michelle Park. Other principal central office staff who
                      contributed include Robert Gibbons, Kevin Manley, and Matt
                      McMullen.




    OEI-05-08-00320   M E D I C A R E P A R T D E - P R E S C R I B I N G S T A N D A R D S : E A R LY A S S E S S M E N T S H O W S P A R T I A L C O N N E C T I V I T Y   33
